No. 19-930

In The
Supreme Court of the United States

 

 

CIC Services, LLC,

Petitioner,
v.
Internal Revenue Service,
Department of Treasury,
United States of America,
Respondents.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

BRIEF OF AMICUS CURIAE
PROFESSOR KRISTIN E. HICKMAN
IN SUPPORT OF PETITIONERS

As preparer of the document above, I hereby certify that the Brief of Amicus
Curiae Professor Kristin E. Hickman in Support of Petitioners, Docket no. 19-930,
complies with Rule 33.1 in that it contains the proper typeface in the proper size. I
further certify that the document contains __7963 _ words total, excluding the parts
of the document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 22, 2020.

4 s Yn LG
Yt & LOCA
Kristi Motch |

Legal Brief Manager, Bachman Legal Printing

Subscribed and sworn to before me this 22nd day of July, 2020.

     

EE PBS cOWNR MoTCH
ise S| 16 i NOTARY PUBLIC- MINNESOTA NV
Notary Public Sas My Commission Expires Jan, 34, 2025

 

 

2020 - BACHMAN LEGAL PRINTING ~ FAX (612) 337-8053 - PHONE (612) 339-9518 or 1-800-715-3582
